Congressional Response Report




   The Social Security
Administration’s Disability
  Research Consortium




   A-01-13-23051| February 2013
                                        February 1, 2013


The Honorable Sam Johnson
Chairman, Subcommittee on
 Social Security
Committee on Ways and Means
House of Representatives
Washington, D.C. 20515

Dear Chairman Johnson:

On September 4, 2012, we received a request from the House Committee on Ways and Means,
Subcommittee on Social Security, to answer specific questions regarding the Social Security
Administration’s Disability Research Consortium grants.

Thank you for the opportunity to provide the Committee with this information. We are also
providing a copy of this report to the Agency.

If you have any questions concerning this matter, please call me or have your staff contact
Misha Kelly, Special Agent-in-Charge of Congressional Affairs, at (202) 358-6319.

                                               Sincerely,



                                               Patrick P. O’Carroll, Jr.
                                               Inspector General

Enclosure

cc:
Michael J. Astrue
Summary of The Social Security Administration’s Disability
Research Consortium
A-01-13-23051
February 2013

Objective                                 Our Findings

To answer specific questions from the     SSA awarded the MPR and NBER Centers 5-year cooperative
Subcommittee on Social Security           agreements running from August 1, 2012 through July 31, 2017.
regarding the Social Security             For Fiscal Year 2013, SSA provided MPR $2.2 million and NBER
Administration’s (SSA) Disability         $2.8 million. Funding in subsequent years depends on future
Research Consortium (DRC) grants.         appropriations and budgetary approval.

Background                                For Fiscal Year 2013, each Center will work on a series of projects.
                                          The deliverables will include such things as project reports and
The DRC is designed to establish a        policy abstracts. For each of the remaining grant years, SSA will
disability research program that meets    select new projects from the DRC Centers. SSA and the Centers
SSA’s growing need for research-          for the Research Retirement Consortium perform functions related
based information on matters related to   to retirement policy. However, the other organizations and grantees
program and public policy. The DRC        in our review do not do this since each grant is intended for one
comprises the Mathematica Policy          project.
Research’s (MPR) Center for Studying
Disability Policy and the National        To select the Centers for the DRC, SSA used an external panel.
Bureau of Economic Research’s             SSA selected the panel members based on their experience with
(NBER) Disability Research Center.        Federal programs for the disabled or knowledge of such programs
                                          and the public policy issues associated with them. Once selected,
On July 30, 2012, SSA awarded these       the Agency instructed the panel members to independently score
Centers 5-year cooperative                the applications using a number of criteria and recommend centers
agreements.                               based on these scores, the feasibility and adequacy of the project
                                          plans and methodologies, and how the centers jointly met the
On September 4, 2012, we received a       DRC’s objectives. Once this was done, SSA convened and chaired
request from the Committee on Ways        a meeting for panel members to discuss the applications and
and Means, Subcommittee on Social         finalize their scores. Following the meeting, an SSA staff member
Security, to answer specific questions    sent the panel’s recommendations to the approving official. The
regarding the DRC grants.                 approving official followed the panel’s recommendations after
                                          considering them and other factors. To ensure the integrity of the
                                          selection process, SSA had the panel members sign a
                                          Representation of Absence of Conflict of Interest statement and a
                                          grants management officer monitored the process.
TABLE OF CONTENTS
Objective ..........................................................................................................................................1
Background ......................................................................................................................................1
Results of Review ............................................................................................................................2
Conclusions ......................................................................................................................................6
Appendix A – Congressional Request ........................................................................................ A-1
Appendix B – Scope and Methodology ..................................................................................... B-1
Appendix C – Disability Research Consortium ......................................................................... C-1
Appendix D – Major Contributors.............................................................................................. D-1




The Social Security Administration’s Disability Research Consortium (A-01-13-23051)
ABBREVIATIONS
ADA                  American Diabetes Association

DI                   Disability Insurance

DoD                  Department of Defense

DRC                  Disability Research Consortium

GMO                  Grants Management Officer

MPR                  Mathematica Policy Research, Inc.

NBER                 National Bureau of Economic Research

NOAA                 National Oceanic and Atmospheric Administration

OAG                  Office of Acquisition and Grants

ORES                 Office of Research, Evaluation, and Statistics

PO                   Program Official

RRC                  Research Retirement Consortium

Pub. L. No.          Public Law Number

SSA                  Social Security Administration

SSDI                 Social Security Disability Insurance

SSI                  Supplemental Security Income

UI                   Unemployment Insurance

U.S.C.               United States Code

VA                   Veterans Affairs

VR                   Vocational Rehabilitation




The Social Security Administration’s Disability Research Consortium (A-01-13-23051)
OBJECTIVE
Our objective was to answer specific questions from the Subcommittee on Social Security
regarding the Social Security Administration’s (SSA) Disability Research Consortium (DRC)
grants.

BACKGROUND
The DRC is designed to establish a disability research program that meets SSA’s growing need
for research-based information on matters related to program and public policy. 1 The DRC
comprises the Mathematica Policy Research Inc.’s, (MPR) Center for Studying Disability Policy
and the National Bureau of Economic Research’s (NBER) Disability Research Center. On
July 30, 2012, SSA awarded these Centers 5-year cooperative agreements. 2

On September 4, 2012, we received a request from the Committee on Ways and Means,
Subcommittee on Social Security, to answer specific questions regarding the DRC grants. Some
of the questions asked us to compare certain aspects of the DRC grants to other grants awarded
by SSA (such as those for the Research Retirement Consortium [RRC]),3 other Federal agencies,
or the private sector. See Appendix A for a copy of the congressional request.

To conduct our review, we obtained information on the DRC and RRC grants as well as grants
from other organizations, as shown in Table 1. Like the DRC and RRC grants, the grants in
Table 1 are for research in a particular area. See Appendix B for additional information
regarding our scope and methodology.

                                  Table 1: Other Organizations Reviewed
                 Name of Organization                     Type of                        Grant
                                                        Organization
       National Oceanic and Atmospheric               Federal Agency      Prescott
       Administration (NOAA)
       American Diabetes Association (ADA)            Nonprofit           Collaborative Co-Support

       Bill & Melinda Gates Foundation                Nonprofit           Family and Community Roles in
                                                                          Supporting Student Success




1
 SSA administers benefits to disabled individuals through its Social Security Disability Insurance (SSDI) and
Supplemental Security Income (SSI) programs. Social Security Act §§ 223 et seq. and 1611 et seq.,
42 U.S.C. §§ 423 et seq. and 1382 et seq.
2
 A cooperative agreement is a grant that SSA uses when it anticipates substantial Federal involvement during the
conduct of a recipient’s project. Social Security Act § 1110, 42 U.S.C. § 1310.
3
    The RRC focusses on matters related to retirement policy.




The Social Security Administration’s Disability Research Consortium (A-01-13-23051)                                1
RESULTS OF REVIEW
Through our research, we answered the Subcommittee on Social Security’s questions regarding
SSA’s DRC grants. The Subcommittee’s questions as well as our responses are shown below.

1. Provide award information for each of the awarded centers, including amount of the
   award, time period, and recipient. What are the conditions for funding in subsequent
   years?

SSA awarded the MPR and NBER Centers 5-year cooperative agreements running from
August 1, 2012 through July 31, 2017. In the first year, SSA provided MPR $2.2 million and
NBER $2.8 million. Funding in subsequent years depends on future appropriations and
budgetary approval.

2.   What specific projects have been funded for each center? What are the deliverables?

Table 2 lists the DRC projects SSA funded for MPR and NBER. See Appendix C for a
description of each project.

                    Table 2: SSA-Funded DRC Projects for MPR and NBER
                                                    MPR
Identification of the Most Promising Target Populations for Early Intervention
Department of Defense, Veterans Affairs, and Social Security Benefits: Early Intervention Initiatives and
Program Interactions
Analyses of Supported Employment and Disability Benefit Data
Disability Support Needs Under Health Reform
Outcomes of Youth and Young Adults Seeking Vocational Rehabilitation Services
International Efforts to Serve Youth and Young Adults with Disabilities
                                                 NBER
Social Insurance, Firms, and Workers’ Sickness Absences: Evidence from Austrian Social Security Data
An International Comparison of the Efficiency of Government Disability Programs
The Impact of Short-Term Disability Insurance Coverage on Employment and SSDI Enrollment
Assessing the Interaction of Unemployment Insurance and SSDI
State-Dependent Utility and Insurance Purchase Decisions
Understanding the Increase in Disability Insurance Spending
Exploring the Growth of the Child SSI Caseload in the Context of the Broader Policy and Demographic
Landscape
Chronic Disease, Functional Status Limitations, and SSDI Payments
The Effect of SSI Children’s Program on Parental Labor Supply and Long-Term Outcomes of Enrolled
Children
SSDI Replacement Rates and Beneficiary Work Activity
How Financial Incentives Induce Disability Insurance Recipients to Return to Work




The Social Security Administration’s Disability Research Consortium (A-01-13-23051)                         2
SSA expects the following deliverables from MPR and NBER:

•     reports (including executive summaries) on their projects;

•     policy abstracts;

•     establishment of a small grant program that provides Dissertation and Pre/Post-Doctoral
      Fellowships as well as Young Investigator grants to develop a diverse corps of researchers
      who focus their analytical skills on disability research and policy issues;

•     dissemination of research results through their Websites as well as electronic notifications
      and communications;

•     Federal staff briefings;

•     annual conferences;

•     quick turnaround projects (such as a seminar or small conference on a specific issue or
      question, personal consultation with a researcher to learn more about a specific issue, or spin-
      off of recent research); and

•     progress reports.

3. Are projects selected on an annual basis or will these projects be completed on a rolling
   basis throughout the award period? Does the award include funds for new ideas
   outside these projects? If so, how much of the funding is for non-specified projects?
   How does this compare to other contracts within the Agency (that is, Retirement
   Research Consortium) or outside the Agency (that is, other Federal agencies or in the
   private sector)?

SSA will request that the Centers for the DRC submit proposals for research projects annually.
SSA researchers and subject matter experts will review these proposals and forward their
recommendations to an SSA official for final approval. For Fiscal Year 2013, the reviewers only
approved 57 percent of the Centers’ proposed research projects because some of those projects
lacked suitability.

In addition to these research projects, the Centers will conduct quick turnaround projects initiated
by SSA. For Fiscal Year 2013, each Center’s award includes $795,968 for these projects. SSA
anticipates the Centers will need these funds to address disability program questions that arose
during the review of the Centers’ proposed research projects and other issues that may arise
through the collaboration between the Agency and the Centers. 4



4
    Grant numbers 1 DRC12000001-01-00 and 1 DRC12000002-01-00, SSA (July 30, 2012).




The Social Security Administration’s Disability Research Consortium (A-01-13-23051)                  3
SSA has a similar arrangement with the Centers for the RRC—with one exception. For Fiscal
Year 2013, one of the Centers’ awards includes $299,053 for quick turnaround projects.

However, the arrangements between the other organizations and grantees listed in Table 1 are
different from SSA’s arrangement with the Centers for the DRC. These organizations award one
grant per project. Therefore, they and their grantees do not annually select projects or have
projects completed throughout the year, and the organizations’ grants do not include funds for
new ideas.

4. How were centers selected? What was the criteria and process? What were the
   internal agency controls to ensure the integrity of the selection process? Were external
   selection panels used? If so, how were members selected and who served on the panels?
   How does this process compare to other selection processes within the Agency (that is,
   Retirement Research Consortium) or outside the Agency (that is, other Federal
   agencies or in the private sector)?

On March 1, 2012, SSA requested applications for the DRC grants.

To select Centers for the DRC, SSA assigned a program official (PO) to arrange an external
panel of experts. The PO selected eight individuals for the panel. Six individuals were from
Federal agencies with sizeable programs for the disabled. Two individuals from other
organizations were selected for their knowledge of (1) public policy issues associated with
Federal programs for the disabled and (2) SSA disability programs. The organizations the panel
members represented are shown in Table 3.

                    Table 3: Organizations the Panel Members Represented
                                    Name of                       Number of Panel
                                  Organization                      Members
                             Federal Reserve Bank                           1
                       Department of Health and Human                       2
                                  Services
                    Center on Budget and Policy Priorities                  1
                            Department of Education                         2
                            Department of the Navy                          1
                              Department of Labor                           1
                                      Total                                 8

The PO instructed each panel member to independently score the Centers’ applications using
specific criteria and recommend Centers based on (1) these scores, (2) the feasibility and
adequacy of the project plans and methodologies, and (3) how the Centers jointly met the DRC’s
objectives. Once this was done, SSA convened and chaired a meeting for panel members to
discuss the applications and finalize their scores. Following the meeting, an SSA staff member
sent the panel’s recommendations to the approving official. The approving official followed the


The Social Security Administration’s Disability Research Consortium (A-01-13-23051)              4
panel’s recommendations after considering them and other factors, such as duplication of
internal and external research effort. For the selected applicants, SSA sent an electronic Notice
of Award.

The panel members scored each application based on the following.

•   How well the applicant (a) understood the issues or trends influencing disability policy and
    (b) tied this knowledge to his/her research agenda.

•   Whether the applicant (a) had a research agenda that was scientifically sound and policy
    relevant, (b) was likely to significantly contribute to his/her proposed research areas, and
    (c) proposed projects that closely fit the DRC’s objectives.

•   How effective the applicant’s strategies were for disseminating research and other related
    information to a broad and disparate set of academic, research, and policy communities as
    well as the public.

•   How effective the applicant’s strategies were for (a) developing new scholars who focus their
    analytical skills on research and policy issues central to the DRC and (b) educating the
    academic community and practitioners on new techniques and research findings on policy
    issues.

•   How committed and qualified the applicant’s director and staff were to achieving the
    activities associated with the DRC, how well they worked with a range of government
    agencies, and how capable they were at providing policy relevant support to these agencies.

•   Whether the applicant had an appropriate budget for carrying out the planned staffing and
    activities and had additional funding from other sources.

To ensure the integrity of the selection process, the PO had each panel member sign a
Representation of Absence of Conflict of Interest statement. In addition, SSA assigned a grants
management officer (GMO) to initially process the applications and any related documents,
approve the scoring instructions, sign the Notice of Award after the approving official makes
his/her decision, and perform other duties. By signing the Notice of Award, the GMO certifies
that the notice is complete and the grant is in accordance with all applicable laws and regulations
as well as SSA grant and program policies.

In general, SSA and NOAA used the same selection process as shown above for the RRC and
Prescott grants, respectively. ADA and the Bill & Melinda Gates Foundation also used similar
processes for their grants with some exceptions.

•   ADA. After independently scoring the applications, the external panel did not make
    recommendations for an approving official to consider. Instead, the external panel presented
    the proposals within the highest scoring applications to ADA’s Grant Review Committee and
    discussed the applications’ strengths and weaknesses. The Committee consisted of
    volunteers who possessed a broad range of expertise in diabetes research. Based on these


The Social Security Administration’s Disability Research Consortium (A-01-13-23051)                 5
    discussions, the panel and Committee provided final scores for the applications and used
    those scores to make their selections.

•   Bill & Melinda Gates Foundation. Staff members evaluated the applications rather than an
    external panel.

5. What was the outreach process prior to receipt of applications? How and under what
   conditions was technical assistance made available? How did this compare to other
   contracts within the Agency (e.g. Retirement Research Consortium) or outside the
   Agency (e.g. other Federal agencies or in the private sector)?

SSA, NOAA, ADA, and the Bill & Melinda Gates Foundation solicited applications for grants
on their Websites. SSA and NOAA also published the solicitations at www.Grants.gov.
Additionally, SSA published the solicitations for the DRC at www.GrantSolutions.gov and the
RRC in the Federal Register. 5

SSA, NOAA, and ADA provided technical assistance to their grant applicants while the Bill &
Melinda Gates Foundation did not. SSA, NOAA, and ADA assisted grant applicants with
registration, application submission, and certain application content.

SSA and NOAA provided assistance by email, telephone, regular mail, or fax to their grant
applicants. SSA and NOAA also provided a list of questions and answers on the Web for the
DRC and Prescott grant applicants, respectively. Additionally, SSA assisted attendees at a
webinar the Agency conducted on the DRC grants under the White House Initiative on
Historically Black Colleges and Universities. 6 ADA only assisted grant applicants by email and
through a list of questions and answers on the Internet.

CONCLUSIONS
Through our research, we answered the Subcommittee on Social Security’s questions regarding
SSA’s DRC grants. Below are summaries of our answers.

SSA awarded the MPR and NBER Centers 5-year cooperative agreements running from
August 1, 2012 through July 31, 2017. For Fiscal Year 2013, SSA provided MPR $2.2 million
and NBER $2.8 million. Funding in subsequent years depends on future appropriations and
budgetary approval.


5
 After soliciting grant applications for the RRC, SSA published solicitations for grant applications in
www.GrantSolutions.gov, instead of in the Federal Register. GrantSolutions is SSA’s electronic grants system.
Publishing solicitations in it allows for system-to-system collection of grant applications from the www.grants.gov
Website.
6
 Exec. Order No. 13,532, Promoting Excellence, Innovation, and Sustainability at Historically Black Colleges and
Universities, February 2010, 75 Fed. Reg. 9,749 (March 3, 2010).




The Social Security Administration’s Disability Research Consortium (A-01-13-23051)                                   6
For Fiscal Year 2013, each Center will work on a series of projects. The deliverables will
include such things as project reports and policy abstracts. For each of the remaining grant
years, SSA will select new projects from the DRC Centers. SSA and the Centers for the RRC
also do this. However, the other organizations and grantees in our review do not do this since
each grant is intended for one project.

To select the Centers for the DRC, SSA used an external panel. SSA selected the panel members
based on their experience with Federal programs for the disabled or knowledge of such programs
and the public policy issues associated with them. Once selected, the Agency instructed the
panel members to independently score the applications using a number of criteria and
recommend centers based on these scores, the feasibility and adequacy of the project plans and
methodologies, and how the centers jointly met the objectives of the DRC. Once this was done,
SSA convened and chaired a meeting for panel members to discuss the applications and finalize
their scores. Following the meeting, an SSA staff member sent the panel’s recommendations to
the approving official. The approving official followed the panel’s recommendations after
considering them and other factors. To ensure the integrity of the selection process, SSA had the
panel members sign a Representation of Absence of Conflict of Interest statement, and a GMO
monitored the process.

In general, SSA and NOAA used the same selection process as shown above for the RRC and
Prescott grants, respectively. ADA and the Bill & Melinda Gates Foundation used similar
processes for their grants with some exceptions.

SSA and the other organizations generally solicited applications for grants on one or more
Websites. SSA, NOAA, and ADA provided technical assistance to their grant applicants.
Specifically, SSA, NOAA, and ADA assisted grant applicants with registration, application
submission, and certain application content. SSA and NOAA generally provided assistance by
email, telephone, regular mail, or fax to their grant applicants. SSA and NOAA also provided a
list of questions and answers on the Internet for the DRC and Prescott grant applicants,
respectively. ADA only assisted grant applicants by email and through a list of questions and
answers on the Internet.




The Social Security Administration’s Disability Research Consortium (A-01-13-23051)              7
                                        APPENDICES




The Social Security Administration’s Disability Research Consortium (A-01-13-23051)
                Appendix A – CONGRESSIONAL REQUEST

SAM JOHNSON, TEXAS                                                                                                DAVE CAMP, MICHIGAN, CHAIRMAN
              SUBCOMMITTEE CHAIRMAN                                                                    SANDER M LEVIN, MICHIGAN, RANKING MEMBER
KEVIN BRADY, TEXAS                                                                                                      ------------
PAT TIBERI, OHIO                                                                                                            COMMITTEE ON WAYS AND MEANS
AARON SCHOCK, ILLINOIS


                                           Congress of the United States
                                                                                                                       JENNIFER SAFAVIAN, STAFF DIRECTOR
RICK BERG. NORTH DAKOTA                                                                                       KIM HILDRED, SUBCOMMITTEE STAFF DIRECTOR
ADRIAN SMITH. NEBRASKA                                                                                                    -------------------
KENNY MARCHANT, TEXAS                                                                                                JANICE MAYS, MINORITY CHIEF COUNSEL
                                                                                                           KATHRYN OLSON. SUBCOMMITTEE MINORITY STAFF


                                                 House of Representatives
                 ------------------
XAVIER BECERRA, CALIFORNIA
            SUBCOMMITTEE RANKING MEMBER
LLOYD DOGGETT, TEXAS
SHELLEY BERKLEY. NEVADA
FORTNEY PETE STARK, CALIFORNIA                 COMMITTEE ON WAYS AND MEANS
                                                   WASHINGTON, DC 20515
                                                          ----------
                                              SUBCOMMITTEE ON SOCIAL SECURITY


                                                              September 4, 2012

                The Honorable Patrick P. O'Carroll, Jr.
                Inspector General
                Office of the Inspector General
                Social Security Administration
                6401 Security Boulevard
                Woodlawn, MD 21207

                Dear Mr. O'Carroll:

                       The Social Security Disability Insurance program paid benefits to over 8.7 million
                disabled workers in July 2012, with an average monthly benefit of $1,111. According to the
                2012 Annual Report of the Board of Trustees of the Federal Old-Age and Survivors Insurance
                and Disability Insurance Trust Funds, the Disability Insurance Trust Fund will be exhausted in
                2016, just 4 years from now. At that time all disability beneficiaries will face an across-the-
                board 21 percent cut unless Congress acts to strengthen this essential program. As we consider
                ways to strengthen the disability program, expert research provides important insights for the
                Subcommittee to consider.

                       Recently the Social Security Administration awarded two grants for the new Disability
                Research Consortium to Mathematica and the National Bureau of Economic Research. This new
                Disability Research Consortium will fund research into the disability program. We are interested
                in understanding the size, scope and duration of the grants, and the selection process used. We
                would like to compare this experience with Social Security's ongoing Retirement Research
                Consortium grants. More specifically, we ask that your office also respond to the following
                questions:

                      •     Please provide award information for each of the awarded centers, including amount of the
                            award, time period, and recipient. What are the conditions for funding in subsequent years?



                The Social Security Administration’s Disability Research Consortium (A-01-13-23051)                              A-1
Committee on Ways and Means
Subcommittee on Social Security
September 4, 2012
Page 2



    •   What specific projects have been funded for each center? What are the deliverables? Are
        projects selected on an annual basis or will these projects be completed on a rolling basis
        throughout the award period? Does the award include funds for new ideas outside of these
        projects? If so, how much of the funding is for non-specified projects? How did this compare to
        other contracts within the agency (e.g. Retirement Research Consortium) or outside the agency
        (e.g. other Federal agencies or in the private sector)?
    •   How were centers selected? What was the criteria and process? What were the internal agency
        controls to ensure the integrity of the selection process? Were external selection panels used? If
        so, how were these members selected and who served on the panels? How does this process
        compare to other selection processes within the agency (e.g. Retirement Research Consortium) or
        outside the agency (e.g. other Federal agencies or in the private sector)?
    •   What was the outreach process prior to receipt of applications? How and under what conditions
        was technical assistance made available? How did this compare to other contracts within the
        agency (e.g. Retirement Research Consortium) or outside the agency (e.g. other Federal agencies
        or in the private sector)?

   Thank you for your assistance. Should you or your staff have any questions concerning this
matter, please contact Kim Hildred, Subcommittee Staff Director at (202) 225-9263.

                                                 Sincerely,




                                                 SAM JOHNSON
                                                 Chairman




The Social Security Administration’s Disability Research Consortium (A-01-13-23051)                    A-2
Appendix B – SCOPE AND METHODOLOGY
To accomplish our objective, we:

•   Reviewed applicable sections of the Social Security Administration’s (SSA) laws,
    regulations, rules, and procedures.

•   Reviewed the following Office of the Inspector General reports: University of Michigan
    Retirement Research Center (A-02-09-19081), September 2009; Contract with Mathematica
    Policy Research, Inc., for Services to Evaluate Youth Transition Demonstration Projects
    (A-06-09-19061), December 2009; and The Social Security Administration’s Financial
    Literacy Research Consortium (A-08-10-20181), October 2010.

•   Reviewed information on grants for SSA’s Disability and Retirement Research Consortiums.

•   Reviewed publicly available information on grants for research programs from other
    organizations, including the National Oceanic and Atmospheric Administration, American
    Diabetes Association, and Bill & Melinda Gates Foundation.

•   Interviewed and gathered information from staff in SSA’s Offices of Acquisition and Grants
    (OAG) and Research, Evaluation, and Statistics (ORES).

We conducted our review from September through November 2012 in Boston, Massachusetts.
The principal entities audited were OAG under the Office of the Deputy Commissioner for
Budget, Finance, and Management and ORES under the Office of the Deputy Commissioner for
Retirement and Disability policy. We conducted our review in accordance with the Council of
the Inspectors General on Integrity and Efficiency’s Quality Standards for Inspection and
Evaluation.




The Social Security Administration’s Disability Research Consortium (A-01-13-23051)          B-1
Appendix C – DISABILITY RESEARCH CONSORTIUM
The Social Security Administration’s (SSA) Disability Research Consortium (DRC)
comprises the Mathematica Policy Research Inc.’s, (MPR) Center for Studying Disability Policy
and the National Bureau of Economic Research’s (NBER) Disability Research Center. These
Centers are responsible for projects aimed at improving disability policy. Below are brief
descriptions of these projects.

DRC Projects by MPR
•     Identification of the Most Promising Target Populations for Early Intervention. The
      goal of this project is to develop information on the characteristics of workers who receive
      Social Security Disability Insurance (SSDI) benefits and their employers as well as the
      pathways by which the workers enter the SSDI rolls. The research is designed to support the
      development of plans to target new employment support services to those workers most
      likely to postpone labor force exit and SSDI entry as a result of receiving the services.

•     Department of Defense, Veterans Affairs, and Social Security Benefits: Early
      Intervention Initiatives and Program Interactions. In this project, MPR will learn about
      the experience the Department of Defense (DoD) and Veterans Affairs (VA) had with early
      intervention initiatives for disabled veterans. This knowledge may be used to develop a
      similar initiative for civilians. MPR will also assess the interactions among DoD, VA, and
      SSA disability programs. This assessment may lead to the development of options that
      would improve employment outcomes for veterans and reduce their reliance on SSA’s
      disability programs. It will also highlight the complex and sometimes conflicting incentives
      facing disabled veterans—which may lead to achieving more efficiently integrated benefits.

•     Analysis of Supported Employment and Disability Benefit Data. The objectives of this
      project are to learn more about (1) the long-term impacts of time-limited supported
      employment on earnings, benefit receipt, and mortality; (2) how beneficiaries rely on a
      combination of work and benefits for support; and (3) factors that influence job separations
      for beneficiaries. This information may be used to design programmatic innovations that will
      help individuals with psychiatric disabilities increase their earnings and reduce their reliance
      on public programs.

•     Disability Support Needs Under Health Reform. The objective of this project is to
      determine the disability support needs for currently, and potentially, employed individuals
      with disabilities who are covered under the health care reform law. 1 This information will
      help design a plan to ensure employed individuals with disabilities have adequate benefits to
      pay for their disability support needs.



1
    Patient Protection and Affordable Care Act, Pub. L. No. 111-148, 124 Stat. 119 (2010).



The Social Security Administration’s Disability Research Consortium (A-01-13-23051)               C-1
•   Outcomes of Youth and Young Adults Seeking Vocational Rehabilitation Services.
    State Vocational Rehabilitation (VR) agencies serve a critical role in helping young
    individuals with disabilities transition from high school to employment, often by offering
    them additional training and higher education. This project will explore variations in VR use
    among young individuals with disabilities and their employment and benefit outcomes. This
    exploration could reveal that VR agencies have practices in some areas that, if applied in
    other areas, could improve outreach and enrollment in services. It could also reveal that
    some VR agencies have practices that result in better outcomes for young individuals with
    disabilities. If so, this information may be important for other agencies and for existing or
    future programs.

•   International Efforts to Serve Youth and Young Adults with Disabilities. In this project,
    MPR will review programs—such as cash and supplemental benefits, vocational supports,
    and time-limited programs—and reforms for young individuals with disabilities in other
    countries to identify ways SSA and others can improve supports for young individuals with
    disabilities in the United States.

DRC Projects by NBER
•   Social Insurance, Firms, and Workers' Sickness Absences: Evidence from Austrian
    Social Security Data. Austria and many other countries have social security systems
    through which they refund firms for their workers’ absences because of sickness. This type
    of insurance may lead to an under-investment in the prevention of absences. Through a
    quasi-experiment, NBER will estimate the effect different refund levels paid under the
    Austrian social security system have on the incidence and duration of sickness absences.
    This experiment will also provide evidence on the extent to which Austrian firms under-
    invest in preventing sickness absences and the potential for such firms to influence these
    absences.

•   An International Comparison of the Efficiency of Government Disability Programs. In
    this project, NBER will estimate the efficiency of international Disability Insurance (DI)
    programs in their ability to screen applicants and thereby avoid errors. These errors include
    providing benefits to healthy individuals and denying benefits to unhealthy individuals. To
    determine this estimate, NBER will use data on 12 different countries from various sources.

•   The Impact of Short-Term DI Coverage on Employment and SSDI Enrollment. In this
    project, NBER will estimate the effect of short-term disability coverage on labor force
    participation and enrollment in the SSDI program. To do this, NBER will use various
    research strategies and rely on several data sources—such as SSA and the Census Bureau.

•   Assessing the lnteraction of Unemployment Insurance and SSDI. In this project, NBER
    will obtain data from various sources to (1) determine whether Unemployment Insurance
    (UI) extensions in recessions can affect the number of applications and the financial burden
    on the SSDI program, (2) determine the extent to which economic conditions lead workers to
    apply for SSDI when given additional UI benefits, and (3) draw a detailed picture of
    earnings, employment, and unemployment dynamics around SSDI applications.

The Social Security Administration’s Disability Research Consortium (A-01-13-23051)           C-2
•   State-Dependent Utility and Insurance Purchase Decisions. This project will use a survey
    approach to determine whether an individual’s state (healthy or sick) influences his/her value
    of insurance products, such as supplemental DI or long-term care insurance. This
    information will not only help NBER better understand the determinants of private sector DI,
    but will also help NBER assess more accurately the effects of the Social Security disability
    program on an individual’s welfare and how these effects vary across the population.

•   Understanding the Increase in DI Spending. Spending on Social Security disability
    benefits has increased since 1984. In this project, NBER will identify the share of this
    increase in spending attributable to demographic, policy, and labor market changes. The goal
    is to determine whether the increase in spending on Social Security disability benefits is
    likely to continue or stabilize, now that baby boomers are converting from disability benefits
    to retirement benefits and policy changes that took place in 1984 have had a chance to fully
    work through the system.

•   Exploring the Growth of Child Supplemental Security Income Caseload in the Context
    of the Broader Policy and Demographic Landscape. The child Supplemental Security
    Income (SSI) caseload more than tripled between 1989 and 2010, and it continues to grow. 2
    The main objectives of this project are to investigate the extent to which the growth in the
    SSI caseload (1) reflects broader trends in disability diagnoses among children in the United
    States, as compared to the incentives implicit in the provisions of the SSI program and (2) is
    driven by the limits of other social programs serving overlapping populations, such as special
    education programs.

•   Chronic Disease, Functional Status Limitations, and SSDI Payments. Over the past
    decade, driven in part by rising obesity prevalence, many indicators of disability have
    deteriorated in the United States. In this project, NBER seeks to address how this change in
    health status as well as how policy-induced changes in chronic disease prevalence and certain
    disability rates will affect future Social Security outlays.

•   The Effect of SSI Children’s Program on Parental Labor Supply and Long-Term
    Outcomes of Enrolled Children. In the first year of the project, NBER will evaluate the
    effect of the SSI children's program on parental labor supply and the future earnings of
    enrolled children. If awarded a second year of funding, NBER will study the effect of SSI on
    such things as Medicaid enrollment and the educational outcomes of enrolled children.




2
 SSI is a needs-based program for eligible individuals who are disabled, blind, or aged. Social Security Act § 1611
et seq., 42 U.S.C. § 1382 et seq.




The Social Security Administration’s Disability Research Consortium (A-01-13-23051)                             C-3
•   SSDI Replacement Rates and Beneficiary Work Activity. The rate at which the SSDI
    program replaces an individual’s previous earnings decreases as his/her Average Indexed
    Monthly Earnings increases. 3 In this project, NBER will examine how this policy affects
    work activity and the probability of exiting the SSDI program. It will also examine how this
    relationship varies by age, gender, type of disability, and business cycle conditions.

•   How Financial Incentives Induce DI Recipients to Return to Work. This project will
    identify how financial incentives induce DI recipients to return to work. This information
    will help SSA to understand whether many individuals who are deemed totally and
    permanently disabled have the capacity to work and how elastic their labor supply is to
    changes in financial incentives.




3
  The Average Indexed Monthly Earnings is an average of up to 35 years of earnings adjusted or indexed to reflect
the change in general wage levels that occurred during the worker’s years of employment.




The Social Security Administration’s Disability Research Consortium (A-01-13-23051)                            C-4
Appendix D – MAJOR CONTRIBUTORS
Judith Oliveira, Director, Boston Audit Division

Phillip Hanvy, Audit Manager

Toni Paquette, Auditor




The Social Security Administration’s Disability Research Consortium (A-01-13-23051)   D-1
                                           MISSION
By conducting independent and objective audits, evaluations, and investigations, the Office of
the Inspector General (OIG) inspires public confidence in the integrity and security of the Social
Security Administration’s (SSA) programs and operations and protects them against fraud,
waste, and abuse. We provide timely, useful, and reliable information and advice to
Administration officials, Congress, and the public.


                                   CONNECT WITH US
The OIG Website (http://oig.ssa.gov/) gives you access to a wealth of information about OIG.
On our Website, you can report fraud as well as find the following.
   •   OIG news                                  In addition, we provide these avenues of
   •   audit reports
                                                 communication through our social media
                                                 channels.
   •   investigative summaries
   •   Semiannual Reports to Congress                Watch us on YouTube
   •   fraud advisories                              Like us on Facebook
   •   press releases
                                                     Follow us on Twitter
   •   congressional testimony
   •   an interactive blog, “Beyond The              Subscribe to our RSS feeds or email updates
       Numbers” where we welcome your
       comments


                          OBTAIN COPIES OF AUDIT REPORTS
To obtain copies of our reports, visit our Website at http://oig.ssa.gov/audits-and-
investigations/audit-reports/all. For notification of newly released reports, sign up for e-updates
at http://oig.ssa.gov/e-updates.


                          REPORT FRAUD, WASTE, AND ABUSE
To report fraud, waste, and abuse, contact the Office of the Inspector General via
   Website:        http://oig.ssa.gov/report-fraud-waste-or-abuse
   Mail:           Social Security Fraud Hotline
                   P.O. Box 17785
                   Baltimore, Maryland 21235
   FAX:            410-597-0118
   Telephone:      1-800-269-0271 from 10:00 a.m. to 4:00 p.m. Eastern Standard Time
   TTY:            1-866-501-2101 for the deaf or hard of hearing
